2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

CKLE

Le ga l Brie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1280

THE IDAHO DEPARTMENT OF CORRECTION, ET AL.,
Petitioners,
Vv.
ADREE EDMO,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of August, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED
To be filed for:

ELIZABETH B. PRELOGAR LORI RIFKIN
COOLEY LLP Counsel of Record
1229 Pennsylvania Ave. NW, RIFKIN LAW OFFICE
Suite 700 2855 Telegraph Avenue,
Washington, DC 20004 Suite 517

Berkeley, CA 94705
KATHLEEN HARTNETT (510) 414-4132
COOLEY LLP Irifkin@rifkinlawoffice.com
101 California Street,
Fifth Floor BARRETT J. ANDERSON
San Francisco, CA 94111 COOLEY LLP

4401 Eastgate Mall

San Diego, CA 92121

Subscribed and sworn to before me this 10th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

herr) Kevee. 0. Linoo? Ondo he. Obl

Notary Pub! Affiant 40035

My Comm. Exp. September 5, 2023

 

 
 

 

Attorneys for Petitioners

Brady James Hall Moore Elia Kraft & Hall, LLP 208-336-6900
Counsel of Record 702 West Idaho Street, Suite 800
Boise, ID 83702

brady@melawfirm.net

Party name: Idaho Department of Correction, et al.

 
